           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

         USE OF THE E-VERIFY
   PROGRAM BY THE SOCIAL SECURITY
    ADMINISTRATION’S CONTRACTORS

      March 2012   A-03-11-11111




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      March 8, 2012                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Use of the E-Verify Program by the Social Security Administration’s Contractors
           (A-03-11-11111)


           OBJECTIVE
           The objective of our review was to determine whether the Social Security
           Administration’s (SSA) contractors were complying with the requirement to verify
           employment eligibility of their employees through the E-Verify program.

           BACKGROUND
           E-Verify, formerly known as the Basic Pilot/Employment Eligibility Verification, is an
           Internet-based system operated by the Department of Homeland Security (DHS) with
           SSA support that allows participating employers to verify their employees’ employment
           authorization. 1 E-Verify checks the information provided by the employee on his or her
           Employment Eligibility Verification (Form I-9) against records in the DHS and SSA
           databases. 2

           When the employer submits the employee information via E-Verify, the program will
           provide one of the following responses stating that employment eligibility is authorized
           or employment eligibility is given a Tentative Nonconfirmation (TNC).

           •     Employment Authorized—The data input by the employer matched the information in
                 SSA’s and DHS’ databases, and the new hire is authorized to work in the United
                 States.




           1
            Authority for the E-Verify program is found in Title IV, Subtitle A, of the Illegal Immigration Reform and
           Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, as amended (8 U.S.C. § 1324a note).
           2
               See Appendix C for more details about the E-Verify program.
Page 2 - The Commissioner


•     SSA TNC—The data input by the employer did not match information in SSA’s
      Numident. 3 Employees who choose to contest the E-Verify response
      have 8 Federal workdays to visit a local SSA field office and present documentation
      required to update or correct the Numident.

•     DHS TNC—The data input by the employer for a noncitizen did not match the
      information in DHS’ immigration records, and/or the DHS record shows the new hire
      is not authorized to work. Employees who choose to contest the response have
      8 Federal workdays to contact DHS.

E-Verify Federal Contractor Rule

According to the Federal Acquisition Regulation (FAR), when applicable, all Federal
departments and agencies are to include in contracts the Employment Eligibility
Verification clause. 4 This clause requires that Federal contractors register to use
E-Verify and then verify that new hires and all new or existing employees directly
performing work under a qualifying Federal contract are authorized to work in the
United States.5 Exempted from this requirement are contractor employees who are
issued a Homeland Security Presidential Directive-12 (HSPD-12) credential or hold an
active security clearance of confidential or higher. Further, contractors may elect to
verify the employment eligibility of all existing employees who were hired after
November 6, 1986. 6

The E-Verify clause applies to those Federal solicitations or contracts awarded on or
after September 8, 2009 and are valued at more than the simplified acquisition
threshold ($100,000 in 2009), the work is performed in the United States, and the period
of performance is 120 days or longer. 7 In addition, the E-Verify clause applied to
existing indefinite-delivery/indefinite-quantity (IDIQ) contracts 8 when the remaining
period of performance extended 6 months after the effective date of the final rule
(March 2010), and the amount of work or number of orders expected under the
remaining period of performance was substantial. SSA defines “substantial” work in

3
  The Numident is a record of identifying information (such as name, date of birth, mother’s maiden name,
etc.) provided by the applicant on his or her Application for a Social Security Number (Form SS-5) for an
original Social Security number (SSN) and subsequent applications for replacement SSN cards. Each
record is housed in the Numident Master File in SSN order.
4
    FAR 22.1802 (b) and 52.222-54.
5
 Pursuant to Executive Order 13465—Amending Executive Order 12989, as amended, 73 Fed. Reg.
3285 (June 11, 2008) and 74 Fed. Reg. 26981 (June 5, 2009), as of September 8, 2009.
6
    FAR 22.1802(c).
7
    FAR 22.1803 and 52.222-54.
8
 FAR 16.504(a). An indefinite-delivery contract that provides for an indefinite quantity, within stated limits
(minimum and maximum), of supplies or services to be furnished during a fixed period, with deliveries or
performance to be scheduled by placing orders with the contractor.
Page 3 - The Commissioner


terms of any of various parameters (number of hours to be ordered, number of orders to
be issued, etc.) and the work amounts to at least 75 percent of the estimated total dollar
value of the contract maximum. 9

METHODOLOGY
From September 8, 2009 through September 7, 2010, SSA awarded or modified
286 contracts totaling about $540 million for various goods and services. We randomly
selected 50 contracts 10 totaling about $235 million to determine whether SSA inserted
the E-Verify clause when required. 11

RESULTS OF REVIEW
                                                                Results of 50 Contracts
While the FAR requires that Federal                                  Clause
contractors use E-Verify to confirm their                           Inserted
employees’ employment eligibility to                                  14%
help ensure a legal workforce, we found               Clause
SSA did not insert the E-Verify clause               Required
into 18 percent of the contracts                       18%
reviewed.

Specifically, of the 50 sample contracts                                                        Clause
reviewed,                                                                                        Not
                                                                                               Required
                                                                                                 68%
•     7 (14 percent) included the clause,
      but 6 of the contractors had not
      registered for E-Verify, as required;

•     9 (18 percent) did not include the clause; and

•     34 (68 percent) did not require the clause because either the contracts were
      awarded before the effective date of the final rule, and the remaining period of
      performance was not substantial, or the contract was determined to be a
      commercially available off-the-shelf purchase.




9
    SSA Office of Acquisition and Grants (OAG) Flash Notice 22:09-01.01, dated July 8, 2009.
10
     See Appendix B for more details about our scope and methodology.
11
  As of January 26, 2012, we found that of the 236 remaining contracts, 164 contracts had expired and
72 were active contracts.
Page 4 - The Commissioner


Of the 16 contracts that should, or did, have the E-Verify clause, 6 contractors did not
use E-Verify to confirm the employment eligibility of 107 employees who worked on the
contracts and 1,047 new employees hired in 2010. Thirteen of the new hires would
have received an SSA TNC response or been referred to DHS had the contractors used
E-Verify.

CONTRACTS WITH E-VERIFY CLAUSE

SSA inserted the E-Verify clause in seven contracts, totaling $5.1 million, requiring that
the contractors verify the employment eligibility of new hires and existing employees
who worked on the contracts, see Table 1. These contracts ranged in value from about
$207,000 to $1.6 million. For these seven contracts, four provided medical
consultations, two managed health data exchanges, and one conducted independent
studies of the quality of consultative examinations for disability determinations.

                      Table 1: Contracts with the E-Verify Clause
                                             Number of       Registered        Contract
                  Purpose                    Contracts       for E-Verify       Cost
     Medical Consultant                         4                 0             $835,000
     Health Data Exchange                       2                 1           $2,708,000
     Study of Consultative Examinations         1                 0           $1,601,000
     Total                                      7                 1           $5,144,000

Although the seven contracts included the E-Verify clause, we found that six of the
contractors were not complying with the clause as of September 2011 because they
had not registered to use E-Verify. According to the FAR, these companies should
have registered for E-Verify within 30 calendar days of the award or when the contract
was modified to insert the E-Verify clause. According to Agency staff, they were not
required to obtain proof that the contractors had enrolled in E-Verify. Although there is
no specific requirement in the FAR, it is incumbent upon the Agency to ensure
contractors adhere to the terms and conditions set forth in contracts.

SSA has the ablity to confirm whether contractors have registered by reviewing the
E-Verify Federal Contractors List, which is maintained on DHS’ Website. 12 We believe
Agency staff should review the list to confirm whether contractors have in fact registered
to use E-Verify.




12
   See link to DHS’ website for the E-Verify Federal Contractors List
http://www.uscis.gov/portal/site/uscis/menuitem.5af9bb95919f35e66f614176543f6d1a/?vgnextoid=46e8d
207dd128210VgnVCM100000082ca60aRCRD&vgnextchannel=534bbd181e09d110VgnVCM100000471
8190aRCRD last visited on December 14, 2011. DHS indicated that it intended to update the listing
quarterly.
Page 5 - The Commissioner


CONTRACTS WITHOUT E-VERIFY CLAUSE

SSA did not insert the clause in nine contracts totaling $123 million requiring the
contractors to verify the employment eligibility of new hires and existing employees who
worked on the contracts, see Table 2. 13 These contracts ranged in value from about
$886,000 to $96 million. The nine contracts involved medical consultations, telephone
maintenance, investigative services, and janitorial services.

                      Table 2: Contracts Without the E-Verify Clause
                                                Number of         Registered           Contract
                  Purpose                       Contracts         for E-Verify          Cost
     Medical Consultant                            5                   0              $5,124,000
     Telephone Maintenance Services                2                   2             $97,022,000
     Investigative Services                        1                   0              $1,263,000
     Janitorial Services                           1                   0             $20,045,000
     Total                                         9                   2            $123,454,000

SSA staff agreed that eight of the nine contracts should have included the clause and
stated this omission was an oversight. Agency personnel modified six of the eight
contracts and inserted the clause but did not modify two contracts because they were
close to their expiration dates.14 However, Agency staff members informed us they did
not believe the clause was required for the janitorial service contract because it was
awarded in July 2008—before the effective date of the E-Verify clause.

Based on our review of the contract data along with the criteria set forth in the FAR, we
determined that SSA should have inserted the clause in the contract. The contract was
awarded in July 2008 for $20 million and when the E-Verify clause took effect in
September 2009, the contract had over 8 years and approximately $17 million
(84 percent) remaining on the contract. Therefore, this contract should have been
modified to include the E-Verify clause because the remaining period of performance
extended beyond March 8, 2010 and the amount of work expected under the remaining
performance period was more than 75 percent, as required by the FAR and SSA’s
regulation.




13
  In addition, we reviewed contracts awarded from January 1 through June 30, 2011 and identified 10
contracts totaling approximately $44 million that required the E-Verify clause. Of these 10 contracts, we
found that SSA did not insert the clause into 2 (20 percent) of the contacts totaling about $5 million.
14
  For the six modified contracts, four were medical consultant contracts that SSA awarded as Blanket
Purchase Agreements, which is a simplified method of filling anticipated repetitive needs for supplies or
services. SSA inserted the E-Verify clause in each of these agreements.
Page 6 - The Commissioner


EMPLOYMENT ELIGIBILITY OF CONTRACTOR EMPLOYEES

Of the 16 contracts that should, or did, have the E-Verify clause, 6 contractors did not
use E-Verify to confirm the employment eligibility of 107 employees who worked on the
contracts and 1,047 employees hired in 2010. The remaining 10 contractors did not
hire new employees in Calendar Year (CY) 2010, and/or their employees were exempt
from E-Verify because they held HSPD-12 credentials.

                        Table 3: Contractor Employees Not Verified
                                                        New       Total
                 E-Verify                    Employees  Hires   Employees Potential
                  Clause     Registered         Not      Not       Not      TNC
     Contracts   Inserted    for E-Verify     Verified Verified  Verified Response
        1          Yes           Yes             0        1         1        0
        2          Yes            No              1            0           1             0
        3          No             No              0            1           1             0
        4          No             No              6           70          105            1
        5          No            Yes             10          553          563            7
        6          No            Yes             90          422          512            5
      Totals                                     107        1,047        1,154           13

Employees Not Verified

We found that 4 contractors had 107 employees who performed work directly under the
contracts but were not verified through E-Verify. The employees should have been
verified because they were not issued an HSPD-12 credential. We reviewed the
Numident for the 107 employees to confirm their eligibility to work in the United States
and found that their names and SSNs matched SSA records, and their citizenship
status indicated they were eligible to work in the United States.

New Hires Not Verified

We found that 5 contractors hired 1,047 new employees in CY 2010 who were not
verified through E-Verify. 15 While two of the contractors were not registered to use
E-Verify, three had registered to use E-Verify but had not verified all their new hires.
For example, one contractor who did not have the clause inserted in its contract but was
registered to use E-Verify did not verify 553 employees hired in CY 2010.

We reviewed the Numident for the 1,047 new hires to confirm their eligibility to work in
the United States. Our review of the new hires showed the following.


15
  We reviewed the Forms W-2 information submitted to SSA for Tax Years 2009 and 2010 for each
contractor to identify their new hires in CY 2010.
Page 7 - The Commissioner


•    For 1,034 new hires, the names and SSNs matched the Numident, and the new
     hires’ citizenship status indicated they were eligible to work in the United States.
     These new hires would have received an employment-authorized response had the
     contractor used E-Verify to confirm their employment eligibility.

•    For eight new hires, the names and SSNs matched the Numident, but their
     citizenship status indicated they might not have been eligible to work in the United
     States. The individuals were enumerated between 1978 and 1993. 16 Therefore, it is
     possible these individuals were eligible to work but had failed to report changes to
     their work authorization status to SSA after being issued their SSNs. Had the
     contractors used E-Verify, they would have received an SSA TNC response or the
     case would have been referred to DHS to determine their eligibility to work.

•    For five new hires, the name and SSN combination did not match the Numident.
     While the names were correct for five new hires, the contractors included invalid or
     unassigned SSNs on the wage reports submitted to SSA. SSA’s records showed
     that two new hires who had unassigned SSNs visited SSA’s field offices and
     obtained valid SSNs in 2010 and 2011. For the other three new hires, it appears the
     contractors may have inadvertently transposed digits in their SSNs. For two of these
     new hires, SSA was able to match the names to the correct SSN during the annual
     wage reporting process, but the contractors were unaware of the error. 17 These
     errors would have been discovered had the contractors used E-Verify. For the
     remaining new hire, the Agency sent a Decentralized Correspondence 18 (DECOR)
     notice to the employee informing them that SSA could not match the reported name
     and SSN with information in its records. SSA’s records showed that the employer
     subsequently corrected the SSN.




16
 We did not contact DHS to confirm their employment eligibility. We relied on the information included in
SSA’s Numident file. Thus, their citizenship status may have changed since SSA assigned their SSNs.
17
  As part of the Annual Wage Reporting process, SSA uses the Single Select Edit routine to resolve
unmatched name and SSN data submitted to SSA in employers’ wage reports. The Single Select Edit
assumes the individual's reported last name is correct, but some mistake has been made with the SSN.
Single Select creates up to 89 possible variations of the SSN and matches them against the Numident.
18
  SSA sends DECOR notices to employees whose earnings cannot be credited to its records because
the reported name/SSN cannot be matched. The letters request that the reported information be
reviewed and corrected, when possible, and returned to SSA.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Overall, we found that SSA was inconsistent in inserting the E-Verify clause into
qualified contracts requiring that contractors register to use E-Verify to confirm whether
new hires and all employees directly performing work under a qualifying Federal
contract are authorized to work in the United States. In addition, we found that even
when the E-Verify clause was inserted in some qualified contracts, SSA did not take any
steps to ensure the contractors had in fact registered to use E-Verify. Furthermore, we
found that because the Agency either did not include the clause or verify that
contractors were registered, the employment eligibility for 1,154 contract employees
was not confirmed through E-Verify. As such, we believe SSA needs to take steps to
strengthen its controls to ensure its contractors are using E-Verify to confirm whether
their employees are eligible to work in the Unites States.

Accordingly, we recommend SSA:

1. Modify the janitorial service contract to include the E-Verify clause and determine
   whether the remaining 72 contracts require the E-Verify clause.

2. Issue reminders to contracting officers about the requirements for inserting the
   E-Verify clause into qualifying contracts.

3. As part of contract administration, review DHS’ Federal contractors list to confirm
   whether contractors are registered for the E-Verify Program.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix E for the Agency’s comments.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Description of the E-Verify Program

APPENDIX D – Summary of Sampled Contracts

APPENDIX E – Agency Comments

APPENDIX F - OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
CY        Calendar Year
DECOR     Decentralized Correspondence
DHS       Department of Homeland Security
DOB       Date of Birth
FAR       Federal Acquisition Regulation
FPDS-NG   Federal Procurement Data System – Next Generation
FY        Fiscal Year
HSPD-12   Homeland Security Presidential Directive-12
IDIQ      Indefinite-Delivery/Indefinite-Quantity
OAG       Office of Acquisition and Grants
OIG       Office of the Inspector General
SSA       Social Security Administration
SSASy     Social Security Administration Streamlined Acquisition System
SSN       Social Security Number
TNC       Tentative Nonconfirmation
U.S.C.    United States Code

FORMS
I-9       Employment Eligibility Verification
SF 1449   Solicitation/Contract/Order for Commercial Item
SF 30     Amendment of Solicitation/Modification of Contract
SS-5      Application for a Social Security Number
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

•     Reviewed applicable Federal laws and sections of the Social Security
      Administration’s (SSA) regulations, policies, and procedures.

•     Reviewed applicable Federal Acquisition Regulations.

•     Reviewed Office of the Inspector General reports and other relevant documents.

•     Reviewed SSA’s Administrative Instructions Manual System.

•     Reviewed applicable sections of SSA’s Office of Acquisition and Grants (OAG)
      Contractor Handbook, 1 and SSA OAG Flash Notice 22:09-01.01, Extension of
      Employment Eligibility Verification Applicability Date.

•     Gained an understanding of the E-Verify Federal Contractor Rule.

•     Reviewed the Department of Homeland Security (DHS) E-Verify User Manual for
      Federal Contractors and Supplemental Guide for Federal Contractors.

•     Obtained the DHS E-Verify Federal Contractors List, as of December 2011, to
      determine whether sample contractors were registered, as required.

•     Reviewed and discussed SSA’s contractor process with SSA personnel.

Obtained a data extract from the Streamlined Acquisition System (SSASy) 2 and the
Federal Procurement Data System - Next Generation (FPDS-NG) 3 of all SSA contracts
awarded or modified from September 8, 2009 through September 7, 2010




1
    SSA’s OAG Contractor Handbook Part H2322, Application of Labor Laws to Government Acquisitions.
2
 SSASy is a paperless, electronic tool that SSA’s Contracting Officials use to create, route, and process
purchase requests.
3
 FPDS-NG is the current central repository of information on Federal contracting. The system contains
detailed information on contract actions over $3,000 for Fiscal Year (FY) 2004 and later.
•     Selected a random sample of 50 SSA contracts from a population of 286 contracts
      awarded and modified between September 2009 and September 2010, valued at
      more than $100,000, 4 and with a period of performance of 120 days or more.

•     Obtained from SSASy, the electronic contract files for the 50 sample contracts. 5

•     Obtained a list of contractor employees designated to work on the 50 contracts in
      our sample from the Contracting Officer's Technical Representatives assigned to the
      contracts.

•     Obtained 1,387 suitability and credential records from the Badge Enrollment
      Database, Card Management System, and Contractor Suitability System for the 50
      sample contracts.

•     Obtained SSA’s E-Verify data dated September 2008 through June 30, 2011.

•     Reviewed and compared the annual wage reports for Tax Years (TY) 2009 and
      2010 for the 16 qualified contracts to identify new employees hired in TY 2010.

•     Obtained and analyzed SSA’s Numident 6 for the 1,154 employees working on the
      contract and hired in Calendar Year 2010.

      We determined that the contractor data used for this audit were sufficiently reliable
      to meet our objective. The entity audited was the OAG, under the Office of the
      Deputy Commissioner for Budget, Finance and Management. Our work was
      conducted at the Philadelphia Audit Division, Philadelphia, Pennsylvania, and SSA
      Headquarters in Baltimore, Maryland, from March through December 2011. We
      conducted this performance audit in accordance with generally accepted
      government auditing standards. Those standards require that we plan and perform
      the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
      our findings and conclusions based on our audit objectives. We believe that the
      evidence obtained provides a reasonable basis for our findings and conclusions
      based on our audit objectives.




4
    For the period of our review, the simplified acquisition threshold was $100,000.
5
  We obtained, where applicable, the Standard Form 1449 Solicitation/Contract/Order for Commercial
Items, SF 30 Amendment of Solicitation/Modification of Contract.
6
  The Numident is a record of identifying information (such as name, date of birth, mother’s maiden name,
etc.) provided by the applicant on his or her Application for a Social Security Number (Form SS-5) for an
original Social Security number (SSN) and subsequent applications for replacement SSN cards. Each
record is housed in SSA’s Numident Master File in SSN order.
                                                                                   Appendix C

Description of the E-Verify Program
The E-Verify program, formerly known as the Basic Pilot/Employment Eligibility
Verification, is a Department of Homeland Security (DHS) program whereby
participating employers verify whether newly hired employees are authorized to work in
the United States under immigration law. The Social Security Administration (SSA)
supports DHS in operating this program. Employers must register with DHS to access
E-Verify. Participating employers input information about the individual, including the
individual’s name, date of birth (DOB), and Social Security number (SSN) as well as
whether the individual claims to be a U.S. citizen or work-authorized noncitizen (for
noncitizens, the DHS-issued alien or admission number is also entered), into E-Verify.

The information the employer submits via E-Verify is sent to SSA to verify the name,
SSN, and DOB against SSA’s Numident 1 records. SSA also provides DHS an
indication of U.S. citizenship, as recorded in SSA’s records. DHS confirms the current
employment authorization for noncitizens. E-Verify will provide one of the following
responses: employment eligibility is authorized or employment eligibility is tentatively
not confirmed.

•   Employment Authorized—The data input by the employer matched the information in
    SSA’s and DHS’ databases, and the individual is authorized to work in the United
    States.

•   SSA Tentative Nonconfirmation (SSA TNC)—The data input by the employer did not
    match information in SSA’s Numident. The individual has 8 Federal workdays from
    the date the employer refers the employee to SSA through
    E-Verify and provides them with the SSA Referral Notice. 2

•   DHS Tentative Nonconfirmation (DHS TNC)—The data input by the employer for a
    noncitizen did not match the information in DHS’ immigration records and/or the
    DHS record shows the individual is not authorized to work. Again, the individual has
    8 Federal workdays to contest the DHS TNC response.




1
  The Numident is a record of identifying information (such as name, DOB, mother’s maiden name, etc.)
provided by the applicant on his or her Application for a Social Security Number (Form SS-5) for an
original Social Security number (SSN) and subsequent applications for replacement SSN cards. Each
record is housed in SSA’s Numident Master File in SSN order.
2
  The SSA Referral Notice provides the reason for the SSA TNC response, instructs the individual to visit
an SSA field office within 8 Federal workdays to resolve the case, and instructs the individual to bring
documentary evidence to the field office to resolve the TNC response. This notice also includes the
information the employer entered into E-Verify.
                                                                     Appendix D

Summary of Sampled Contracts
From our review of the 50 sample contracts, we determined that 16 contracts with a
total contract value of approximately $129 million required the E-Verify clause. As
shown in the following table, of the 16 contracts, 9 related to medical consultants, 2
were for health data exchanges, 2 were for telephone maintenance services, 1 was for
investigative services, 1 was for janitorial services, and 1 related to studies of
consultative examinations for disability determinations. The contract periods ranged
from 1 to 11 years.

SSA had inserted the clause in seven of the contracts, but nine did not include the
clause at the time of our review. As shown in Table D-1, of these 16 contracts, we
found 6 contractors did not use E-Verify to confirm the employment eligibility of
107 employees who worked on the contracts and 1,047 employees who were hired in
Calendar Year 2010. Based on our review of the SSA’s records, we determined that
13 new hires would have received a SSA TNC response or been referred to DHS had
the contractors used E-Verify.




                                          D-1
                                      Table D-1: Summary of the 16 Qualified Contracts
                                                                                                 Contract    New
                                         Registered   Contract                                  Employees    Hires
                              E-Verify      For        Award         Contract     Contract         Not        Not      Potential
     Contract Purpose         Clause      E-Verify      Date          Period       Value         Verified   Verified     TNC
1    Medical Consultant         Yes         No        11/19/2009      1 year         $209,200       0          0          0
2    Health Data Exchange       Yes         No        02/01/2010      1 year       $1,625,000       0          0          0
     Study of Consultative
 3   Examinations               Yes         No        09/29/2009     1.5 years     $1,601,022       1          0          0
 4   Health Data Exchange       Yes         Yes       02/01/2010      1 year       $1,082,726       0          1          0
 5   Medical Consultant         Yes         No        11/19/2009      1 year         $209,200       0          0          0
 6   Medical Consultant         Yes         No        11/23/2009      1 year        $ 207,200       0          0          0
 7   Medical Consultant         Yes         No        11/19/2009      1 year         $209,200       0          0          0
 8   Medical Consultant         No          No        05/25/2010      5 years        $887,382       0          0          0
 9   Janitorial Services        No          No        07/25/2008     10 years     $20,044,525       6         70          1
10   Medical Consultant         No          No        06/01/2010      5 years        $885,582       0          0          0
     Telephone
11   Maintenance                No          Yes       09/30/2008      5 years        $956,186      10         553         7
12   Investigative Services     No          No        08/16/2010      5 years      $1,263,150       0          0          0
13   Medical Consultant         No          No        05/25/2010      5 years        $887,382       0          1          0
14   Medical Consultant         No          No        12/19/2008      5 years      $1,576,125       0          0          0
     Telephone
15   Maintenance                No          Yes       08/23/2000     11 years     $96,065,837       90        422          5
16   Medical Consultant         No          No        05/25/2010      5 years        $887,382        0         0           0
     Total                                                                       $128,597,099      107       1,047        13




                                                               D-2
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      March 1, 2012                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Use of the Employment Verification Program by
           the Social Security Administration’s Contractors” (A-03-11-11111)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-7284.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“USE OF THE EMPLOYMENT VERIFICATION PROGRAM BY THE SOCIAL
SECURITY ADMINISTRATION’S CONTRACTORS” (A-03-11-11111)


Recommendation 1

Modify the janitorial service contract to include the E-Verify clause and determine whether the
remaining 72 contracts require the E-Verify clause.

Response

We agree. On February 23, 2012, we took the appropriate action to modify the janitorial service
contract to include the E-Verify clause.

Recommendation 2

Issue reminders to contracting officers about the requirements for inserting the E-Verify clause
into qualifying contracts.

Response

We agree.

Recommendation 3

As part of contract administration, review the Department of Homeland Security’s Federal
contractors list to confirm whether contractors are registered for the E-Verify Program.

Response

We agree.




                                               E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Mary Dougherty, Auditor-in-Charge

   Michael J. Brooks, Auditor

   Patrick Kennedy, Lead IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-03-11-11111.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
